    August 2005                                                               Volume 3, No. 2
                                                                                                   USNRC



    OIG Information Digest                                                        NUREG/BR-0304
                                                                                                     Special points of in-
                                                                                                           terest:
    Use of Information Technology                                                                  > Use of Information
    In June 2001, the Office of the In-            cannot be at work to perform their                 Technology and the
    spector General (OIG) published an             duties. This publication reiterates                Internet
    OIG Fraud Bulletin1 that addressed             the importance of using these cards
    the use of the Government travel               and equipment appropriately. Also               > Stop Unsolicited Mail
    card. This bulletin explained the              included are descriptions of investi-
    difference between using a per-                gations related to these subjects.              > Stop Unwanted Tele-
    sonal credit card and a Govern-                                                                   phone Calls
    ment-issued travel card. In June
    2002, the OIG published an OIG                 Use of Citibank
    Fraud Bulletin that discussed the
    use of information technology in the
                                                   Travel Card
    workplace, i.e., using fax machines,
    copying machines, computers, and               A reminder for all employees is that
    the Internet for personal as op-               currently the Government travel
    posed to professional use.                     card is issued to employees with no
                                                   application fee, annual fee, interest,
    There are still instances where em-            or credit check. The card is in-
    ployees use the Government-issued              tended to save the Government the
    travel card to purchase personal               expense of travel advances and to
    items, or use the computer to                  provide employees on official travel
    download pornography, or to run                a convenient method of handling
    personal businesses on Govern-                 the expenses associated with that
    ment time. Despite Yellow An-                  travel. The Government bears the
    nouncements, warnings, issues of               expense of administering the travel
                                                   card program.
    the OIG Information Digest, and                                                                   Inside this issue:
    education about the proper use of
    Government equipment, the Inter-               NRC employees are required to ad-
    net, and Government travel cards, a            here to the guidance in NRC Man-               Use of Information         1-5
    number of OIG investigations still             agement Directive (MD) 14.1,                   Technology
    involve such activity.                         “Official Temporary Duty Travel,”
                                                   concerning use of the Government-
    This issue of the OIG Information              issued travel card. According to MD            OIG Cases on Misuse of 2
    Digest will again discuss these top-           14.1, “A card holder may use his or            Government Travel
                                                   her travel card for official travel,”
    ics in an effort to dissuade NRC em-                                                          Card
    ployees from using their Govern-               which includes:
    ment-issued travel cards and Gov-
    ernment equipment inappropriately.             •   Obtaining authorized travel ad-            OIG Cases on Com-          4-5
    Misusing Government cards and                      vances through automated teller            puter Misuse
    equipment may lead to disciplinary                 machines.
    action resulting in lost pay for the
    employee or even removal from                  •   Paying for official travel ex-
    Federal service. Administrative ac-                penses such as hotels, meals,
    tion taken against employees also                  and rental cars.
    results in lost time for the Govern-
    ment because those employees                   •   Obtaining common carrier tick-

1
    The OIG Information Digest is the successor publication to the OIG Fraud Bulletin.
    Page 2                   OIG Information Digest

Use of Information Technology         (cont. from page 1)   Cases on Misuse of Government Travel Card
    ets when a Travel Management Center (TMC)               1.   During an 18-month period, an NRC em-
    representative is not available or when the trav-            ployee used the Government travel card to
    eler has been specifically authorized to charge              withdraw almost $6,000 in cash for personal
    his or her ticket.                                           reasons. This employee also withdrew
                                                                 more than $9,000 greater than the author-
MD 14.1 states that the travel card may not be                   ized amount allowed for official travel in the
used for purchases that would not be reimbursable                same time period. The employee is facing
on the employee’s travel voucher and that use of                 removal from Federal service.
the Government-issued travel card for unauthor-
ized travel advances or personal purchases that             2.   An NRC consultant made 58 personal pur-
are not eligible for reimbursement on a travel                   chases totaling more than
voucher may result in disciplinary action.                       $10,000 on the Government
                                                                 travel card. These purchases
Travel card statement printouts have been ana-                   were not made in connection
lyzed by the Office of the Chief Financial Officer               with any official NRC business
and the OIG. Some of these statements indicated                  and, according to NRC travel
that items and services such as those listed below               records, the consultant had not traveled on
have been improperly purchased with the Govern-                  official NRC business since 1998. The con-
ment travel card:                                                sultant’s appointment with NRC was termi-
                                                                 nated.
•   Engine repairs, gas, oil
    change, battery for personal                            3.   An NRC employee used the Government
    vehicles                                                     travel card to make more than $2,500 in
•   Clothing                                                     personal purchases for gasoline, medical
•   Doctor visits                                                treatment, entertainment, and other miscel-
•   Medical outpatient proce-                                    laneous expenses. These purchases were
    dures                                                        not made in connection with official travel.
•   Personal travel                                              The employee was suspended for 5 days.
•   Personal entertainment
•   Meals when not in travel                                4.   Another NRC employee used the Govern-
    status                                                       ment travel card for exces-
•   Casino transactions                                          sive cash advances which
•   Groceries                                                    were claimed for official
•   Hotels for personal travel                                   business. This employee
•   Cash withdrawals for per-                                    was late paying the travel
    sonal use                                                    card bill and also made false statements to
•   Cable television service                                     OIG concerning payment schedule and
                                                                 checks returned for insufficient funds. The
Yellow Announcements                                             travel card account was canceled and the
                                                                 employee was suspended for 30 days.
Between 1999 and 2000, NRC issued three Yellow
Announcements regarding the use of Government               5.   An NRC employee made 60 personal pur-
travel cards. Beginning in March 2000, the Office                chases for more than $6,000 using the Gov-
of the General Counsel incorporated into its annual              ernment-issued travel card. The purchases
ethics briefing, guidelines on the appropriate use of            were for retail and online purchases, Inter-
the Government travel card. Since that time, NRC                 net and satellite TV service, and other mis-
has also provided annual notices to all NRC em-                  cellaneous items. The employee was sus-
ployees on the subject.                                          pended for 5 days.
Page 3                                                                                   Volume 3, No. 2

Proper Use of Information Technology and the Internet
As beneficial as the appropriate use of the Internet        Employees may also
can be, the repercussions for misuse by a Govern-           use information technology to check their Thrift
ment employee in the workplace can be costly. Fed-          Savings Plan or other personal investments,
eral employees are prohibited from accessing certain        seek employment, communicate with a volunteer
Web sites using Government computers. Employee              charity organization, or file a Freedom of Infor-
productivity may also be affected by excess personal        mation/Privacy Act request.
use of the Internet. Additionally, NRC contractors
may not use the Internet for any type of personal use.      No Expectation of Privacy
Use of the Internet is a privilege, not a right. Misuse     NRC employees do not have a right to, nor
of Government information technol-                          should they have an expectation of, privacy
ogy resources is considered miscon-                         when using any agency information technology
duct and employees involved in such                         equipment, including e-mail and the Internet. If
activity could be subject to discipli-                      employees wish their private activities to remain
nary action. Accessing pornographic                         private, they should refrain from using NRC in-
sites is an example of this type of                         formation technology for
misconduct.                                                 non-Government purposes.
                                                            By using Government infor-
Statutes, regulations, and NRC Management Direc-            mation technology, NRC em-
tives all provide guidance on the proper and improper       ployees consent to the dis-
use of Government equipment.                                closure of all information
                                                            contained in the files or
NRC MD 2.7, “Personal Use of Information Technol-           passing through NRC equip-
ogy,” provides that NRC extends the opportunity to its      ment.
employees to use Government property for personal
purposes in an effort to create a more supportive work      Computer Banner
environment. MD 2.7 states that the policy grants a
privilege--not a right--to use agency information tech-     Each time an NRC employee logs onto an NRC
nology for certain non-Government purposes.                 Government computer, a banner is displayed
                                                            notifying the user that the computer system is
Use of NRC information technology for personal pur-         subject to monitoring for maintenance, to pre-
poses is acceptable provided such use involves 1)           serve system integrity and security, and for other
minimal or no additional expense to the Government,         official purposes. It states in part:
2) is performed before or after work or during a lunch
period, 3) does not interfere with NRC’s mission or            ...You should not expect privacy nor protec-
operations, 4) does not violate the Standards of Ethi-         tion of privileged communication with your
cal Conduct for Employees of the Executive Branch,             personal attorney, regarding information you
and 5) is not prohibited by law. These guidelines ap-          create, send, receive, use or store on this
ply to use of personal computers, printers, software,          system. If monitoring reveals possible evi-
telephones, pagers, facsimile machines, photocopi-             dence of violation of criminal statutes, this
ers, e-mail, and the Internet. However, MD 2.7 pro-            evidence and any related information includ-
hibits an employee from using the Internet to access           ing your identification may be provided to law
sites on pornography, hate crimes and gambling.                enforcement officials, including the Office of
                                                               the Inspector General. Anyone who violates
During business hours, use of the computer/Internet is         security regulations or makes use of Federal
acceptable to access information relevant to official          computer systems is subject to criminal
business. Any information that enhances an em-                 prosecution and/or disciplinary action.
ployee’s ability to better perform his or her job is con-
sidered acceptable use.
  Page 4                   OIG Information Digest


Proper Use of Information Technology and the Internet                (cont. from page 3)

Statutes and Regulations Restricting IT             and stored the images on the NRC computer network
   Use                                              storage area assigned to him. The employee was sus-
                                                    pended for 45 days without pay.
Management Directive 2.7 provides examples
                                                    Eleven NRC contractor employees engaged in prohib-
of the improper use of information technology
                                                    ited Internet activity by viewing sites
with respect to computers, pagers, and tele-
                                                    of a pornographic nature. The em-
phones. All employees should be familiar
                                                    ployees also searched the Internet
with its content. All employees are expected
                                                    for personal reasons. The total
to be responsible for their own personal and
                                                    hours spent on computers for non-
professional conduct.
                                                    business related work exceeded
                                                    725. NRC was able to recover more than $61,000 from
OIG Cases on Misuse of Com-                         this contractor company. Internet access has been re-
puters                                              moved from the computers of these contractor employ-
                                                    ees.
Three contractor employees
received and forwarded e-mails                      An NRC employee reported that he thought someone
to each other that contained                        was trying to access his NRC com-
sexually explicit images. They                      puter and he asked for help resolving
used their assigned NRC e-                          this problem. During a review of his
mail accounts to forward these                      computer, many files containing sexu-
to each other for a period of about 15 months.      ally explicit materials were discovered.
These contractors were terminated from their        OIG also discovered that the em-
positions.                                          ployee had been creating sexually explicit stories to
                                                    post on the Internet. This employee was issued a 20-
An NRC resident inspector knowingly mis-            day suspension without pay.
used his NRC-assigned computer to access
sexually explicit Web sites. He claimed he          An NRC employee decided to retire rather than face
normally spent about 1 hour, two to three           administrative action because on more than one occa-
times a week viewing Internet Web sites con-        sion he left on a printer sexually explicit material which
taining sexually explicit material. He had ap-      he had downloaded from the Internet.
proximately 9,000 files containing nude im-
ages on his computer, including nude images         An NRC employee admitted using his NRC-assigned
of individuals who looked to be under age 18.       computer to download and view sexually explicit mate-
The employee elected to retire from Federal         rial ever since the NRC provided Internet access
service rather than face administrative action.     through its network. He claimed he spent many hours
(Legal action was not warranted because             viewing pornography. This employee was issued a 21-
none of the images met the legal standards          day suspension without pay.
for child pornography.)
                                                    An NRC employee sent harassing and
An NRC employee knowingly misused his               threatening e-mails from an NRC com-
NRC-assigned computer to access Web sites           puter and also used a telephone to
of a sexual nature and sent sexually explicit       make harassing calls. The employee
messages to coworkers over the Internet two         was arrested and sentenced to 1 year of
or three times a day. The employee claimed          probation and community service for
he viewed these sites for approximately 20 to       using a personal telephone to place harassing calls.
30 minutes every day. He also created files         NRC issued the employee a Letter of Reprimand for
of images of nude or partially nude individuals     inappropriately using the agency e-mail system.
Page 5                                                                                       Volume 3, No. 2

OIG Cases on Misuse of Computers           (cont. from page 4)

An NRC employee frequently used the NRC com-               Department, 9620 Towne Center Drive, San Diego,
puter, e-mail system, and telephone to conduct             CA 92121.
outside personal business. Action is still pending
on this investigation.
                                                           Stop Those Phone Calls!
This is only a sample of cases that OIG has investi-
gated concerning the misuse of information tech-           You may reduce the number of tele-
nology.                                                    marketing calls on your home phone
                                                           and cell phone by dialing 1-888-382-
                                                           1222. Your request will stay in the
Stop Unsolicited Mail!                                     registry for 5 years unless the phone
                                                           is disconnected or you remove your
OIG is reprinting information from the last OIG In-        number from the registry.
formation Digest on how to stop unsolicited mail
and phone calls. Too frequently, our mailboxes are         If you have any questions or concerns relating to
cluttered with unsolicited offers of credit cards pre-     the use of the Government travel card or use of
approved for amounts ranging from $5,000 to                NRC information technology equipment, please
$25,000 with low interest rates. We are also con-          consult MD 2.7 or call the Office of the Inspector
sumed with advertisements for life insurance poli-         General.
cies. Would you like to stop being barraged with all
this “junk” mail? The credit bureaus are offering a
toll-free number that lets you “opt-                       You may report fraud, waste, or
out” of all these offers. Call 1-888-
567-8688 for an automated mes-
                                                           abuse, by writing to:
sage. You will be prompted for
personal information. Alterna-                             NRC
tively, you may “opt-out” by ac-                           Hotline Program
cessing the Web site at                                    Office of the Inspector General
www.optoutprescreen.com. You will be required to           Mail Stop T5D28
provide personal information. This is a secure site        11545 Rockville Pike
and also has an additional mechanism in place to           Rockville, MD 20852
ensure security and privacy. OIG spoke with two
Experian employees concerning requirements to              Or you can call:
opt-out and was assured that the two methods
were very secure.                                          800-233-3497
Stop solicitations from the Direct Marketing Asso-         TDD
ciation’s 5,200 member companies, which repre-             800-270-2787
sent 80 percent of these marketers. Get forms for
$5 at www.dmaconsumers.org/cgi/offmailinglist.             Or you may also:
               Or write for free forms to the Direct
               Marketing Association, Mail Prefer-         Access the NRC Web site, click on Inspector
               ence Service, P.O. Box 643, Carmel,         General, click on Hotline, type your complaint,
               NY 01512.                                   and click submit.
              Remove yourself from some mort-
gage refinancing and home equity loan offers by
calling the Axciom U.S. Consumer Hotline at (877)
774-2094 or writing to DataQuick, Attn: Opt-out
